LaWlli

IKreis~
ATTORNEYS A~D COUNSELORS AT LAW

Kreisler Law, P.C.

2846A N. Milwaukee Avenue
Chicago, Illinois 60618
Phone {773} 394-6400

Fax (773) 394-6441

February 7, 2020

www.kreislerlaw.com

Supreme Court of the United States
Attn.: Clerk of the Court
One First Street, N .E.
Washington, DC 20543
Re: Harold Wade and Lorraine Wade v Kreisler Law, P.C. - Supreme Court Case No. 19-320
Dear Court Clerk:
Respondent requests an extension of time to file Response to the Petition for Certiorari in this
Court to Wednesday, Febrwuy 11, 2020. As you know, Respondent had not planned to file a
response to the petition. However, your letter of December 27, 2019 clarified that the Court's
request for a response to the petition is considered mandatory. Accordingly, we immediately
began work on a response, which is now being finalized.
Wherefore, Respondent respectfully requests that an order be entered extending the time for
filing the Response until Wednesday, Febrwuy 11, 2020.
Yours truly,
Kreisler Law, P.C.

Barry2s~
E-Mail: bk@kreislerlaw.com
Cc: Michael A. Miller

NO.

19-320

INTBE
SUPREME COURT OP THE UNITED STATES
HAROLD WADE AND LORRAINE WADE,
Petitioners

v.
KREISLER LAW, P.C.,
Respondent.
PROOF OF SERVICE
Barry Kreisler, being first duly sworn, deposes and states that on the 7°1 day ofFebruacy, 2020,
all parties required to be served and listed below have been served with a copy of
Correspondence to the Supreme Court of the United States, Attention Clerk of the Court, dated
February 7, 2020, and a copy of this Proof of Service, electronically and by first class mail
through the US Postal Service, correct postage attached thereto, in Chicago, Illinois, in
accordance with Rule 29 .3:
Michael A. Miller
The Semrad Law Firm
20 South Clark, 28th Floor
Chicago, IL 60603
(312) 256-8728
mmiller@semradlaw.com

Kreisler Law, P.C.
2846A North Milwaukee
Chicago, IL 60618
(773) 394-6400
bk@kreislerlaw.com

Barry Kreisler

